/
q

•W

USCA11 No. 21-10331

ORIGINAL

21 =54i?2

FILED
JUN 2 3 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STAffi§EMJLS°URT'us-

PROVIDED TO
OKALOOSA Cl

VINCENT JONES,
Petitioner,

AUG 1 6 2021
FOR MAILING___i _
RECEIVED BY <7/i

-vs-

MARK INCH, SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS,
Respondent.

PETITION FOR WRIT OF CERTIORARI

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEAL FOR THE ELEVENTH CIRCUIT

/
I

Vincent Jones, DC# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
CrestviewrFb-32539
—

RECEIVED
AUG 2 4 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

c*

TABLE OF CONTENTS
Question Presented

iii

Corporate Disclosure Statement

IV

Table of Authorities Cited

v

Table of Appendices

vi

Citation to Opinion

Vll

Basis for Jurisdictional

Vll

Constitutional Provisions

viii

Statement of Facts

1

Timeliness of Petition

2

Reason for Granting Writ

4
.4

Issue
Whether a criminal judgment becomes final for purposes of the 1-year
Antiterrorism and Effective Death Penalty Act time limitation for filing a habeas
petition provided by 28 U.S.C. § 2244(d)(1)(A), upon compliance by the lower
tribunal with the mandate issued on direct review or upon the conclusion of direct
review?
Conclusion

8

Declaration of Service

8

ii
//
/

i

QUESTION PRESENTED
Whether a criminal judgment becomes final for purposes of the 1-year
Antiterrorism and Effective Death Penalty Act time limitation for filing a habeas
petition provided by 28 U.S.C. § 2244(d)(1)(A), upon compliance by the lower
tribunal with the mandate issued on direct review or upon the conclusion of direct
review?

in

CORPORATE DISCLOSURE STATEMENT
There are no corporations that are or hold 10% or more of any publicly held company and all
parties to the proceeding whose judgment is sought to be reviewed are contained in the caption of the
case.

IV

_____________;■

c

TABLE OF AUTHORITIES CITED
Cases
Brown v. Inch, 2020 U.S. Dist. LEXIS 53897, *13 (S.D. Fla. March 26, 2020)
Burton v. Stewart, 549 U.S. 147, 156, 127S.Ct. 793, 799(2007)

5
5, 6

Ferreira v. Sec'y, Dep't ofCorr., 494 F.3d 1286, 1292 (11th Cir. 2007)

5

Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2021)

7

Insignares v. Sec'y, Dep't ofCorr., 755 F.3d 1273, 1281 (11th Cir. 2014)

5

Jones v. State, 225 So.3d 290, 292 (Fla. 4th DCA2017)

4

Magwoodv. Patterson, 561 U.S. 320,324,130 S. Ct. 2788 (2010)

5

Parrimon v. State, 644 So.2d 95 (Fla. 2d DCA 1994)

5

Patterson v. Sec'y Dep't ofCorr., 849 F. 3d 1321, 1325 (11th Cir 2017)

5

Plottv. State, 148 So.3d 90, 94 (Fla. 2014)

5

Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595,1604 (2000)

6,7

State v. Macino, 714 So.2d 429, 433 (Fla. 1998)

5

Strickland v. Washington, 466 U.S. 688, 104 S.Ct. 2025 (1984)

7

Vaughn v. Sec'y Dep't ofCorr., 770 F. App'x, 554, 555 (11th Cir. 2019)

6

Williams v. State, 692 So.2d 1014 (Fla. 4th DCA 1997)

6

Federal Statues
28 U.S.C. § 2253(c)(2)

8

28 U.S.C. § 2244(d)(1)(A)

4

28 U.S.C. § 2254

4

Florida Statues
§775.082((l)(a)

4

§775.084(4)(a)l

~4
v

1

TABLE OF APPENDICES 1
APPENDIX A
U.S. Court of Appeal, Eleventh Circuit, denial of Application of Certificate of Appelability,
April 20, 2021
APPENDIX B
U.S. District Court, Southern District of Florida, dismissal of 28 U.S.C. § 2254 Petition for
Writ of Habeas Corpus, January 11, 2021
APPENDIX C
Fourth District Court of Appeal, State of Florida, mandate of postconviction appeal, September
4, 2021
APPENDIX D
Fourth District Court of Appeal, State of Florida, denial of postconviction appeal, August 6,
2020
APPENDIX E
Seventeenth Judicial Circuit Court, Broward County, Florida, denial of Motion for
Postconviction Relief, April 13, 2020
APPENDIX F
Seventeenth Judicial Circuit Court, Broward County, Florida, order striking designation of
habitual felony offender, September 18, 2018
APPENDIX G
Fourth District Court of Appeal, State of Florida, mandate of direct appeal, August 18, 2017
APPENDIX H
Fourth District Court of Appeal, State of Florida, order affirming in part, reversing in part, and
remanding, direct appeal, July 19, 2017

1

Appendices are contained under separate cover filed herewith.
VI

'k

4_-----

c.

CITATION TO OPINION
The opinions of the U.S. Court of Appeal at Appendix A to the petition is unpublished.
The opinion of the U.S. District Court appears at Appendix B to the petition and is unpublished.

BASIS FOR JURISDICTION
The date on which the U.S. Court of Appeal denied Petitioner's case was April 20, 2021. A
copy of the order of denial appeals at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

vn

*_—

c..

CONSTITUTIONAL PROVISIONS
SIXTH AMENDMENT
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the nature and cause of the accusation'
to be confronted with the witnesses against him to have compulsory process for obtaining witnesses in
his favor and t have the Assistance of Counsel for his defense.

FOURTEENTH AMENDMENT
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No Sate shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

vm

■v.—

c

STATEMENT OF FACTS
Petitioner was charged by indictment, along with a codefendant, with two counts of first-degree
murder (Counts 1 & 2) and one count of attempted first-degree murder (Count 3). Counts 1 and 2
alleged that Petitioner actually possessed a gun which he discharged causing death, while Court 3
alleged that he possessed the firearm and discharged it.
Petitioner was represented at trial by Joseph Pappacoda. Petitioner was found guilty of two
counts of first-degree murder and one count of attempted first-degree murder as charged. The jury
further found that Petitioner actually possessed a firearm during the murders which he discharged
caused death, and that he possessed and discharged the firearm during the attempted murder. Petitioner
was sentenced to concurrent terms of life imprisonment without parole as a habitual felony offender
and with a mandatory life sentence pursuant to the 10-20-life statue on Counts 1 and 2 and a concurrent
term of life in prison as a prison releasee reoffender with a twenty-year mandatory minimum term
pursuant to the 10-20-life on Court 3.
Petitioner filed a timely notice of appeal to the Fourth District of Appeals. On Petitioner's direct
appeal, Petitioner argued that 1) The trial court erred in denying appellant's motion for judgment of
acquittal of first-degree murder where the State failed to proved that appellant acted with premeditation
and 2) the trial court erred in sentencing appellant as a habitual felony offender and to mandatory
minimum 10-20-life terms on each of his convictions for first-degree murder. On July 19, 2017, the
Fourth District Court of Appeal issued an opinion affirming Petitioner's conviction and sentence, but
reversing the designation as a habitual felony offender with directions to strike the designation of
habitual felony offender for first-degree murder. Mandate was issued August 18, 2017. On September
18, 2018, the Seventeenth Judicial Circuit, Broward County, issued an order striking the designation of
habitual felony offender for first-degree murder.
Petitioner file a timely Motion tor Postconviction Relief on October 15720T8.' ’On August 19,
1

V -—

t.

2019, Petitioner file an Amended Motion for Postconviction Relief raising five claims of ineffective
assistance of trial counsel. Petitioner's amended motion was denied on April 13, 2020. Petitioner
subsequently filed a timely Notice of Appeal to the Fourth District Court of Appeal on April 28, 2020.
Petitioner's appeal was per curiam affirmed on August 6, 2020. Mandate issued September 4, 2020.
On September Petitioner filed a Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. §
2254 in the United States District Court, Southern District of Florida. In Petitioner's habeas petition he
raised one ground of ineffective assistance of counsel. The district court entered an order on January
11, 2021 dismissing Petitioner's habeas petition as untimely. In the order of dismissal the district court
also denied Petitioner a certificate of appealability (COA).
On January 17, 2021, Petitioner filed a timely notice of appeal seeking an appeal of the district
court's order of dismissal.

On March 17, 2021, Petitioner filed an application for certificate of

appealability in the United States Court of Appeal for the Eleventh Circuit. In Petitioner's application
he sought a certificate of appealability as to whether the district erred in dismissing Petitioner's habeas
petitioner as untimely with addressing the underlying constitutional claim of the petition. The court of
appeal entered an order denying Petitioner's claim on April 4, 2021. Specifically, the court of appeals
held that reasonable jurists would not debate that district court's dismissal of his § 2254 petition as
time-barred.

TIMELINESS OF PETITION
Pursuant to Title 28 U.S.C. § 1651, the Supreme Court and all courts established by Act of
Congress may issue writs necessary or appropriate in and of their respective jurisdictions and agreeable
to issue the usage and principles of law. Rule 13.1, Supreme Court Rules provides that a Petition for
Writ of Certiorari seeking review of a judgment of a United States court of appeals is timely when it is
fi-led-wifh-the-clerk~within-90-days-after-entryT>f~the~judgment: The judgment ofThe united states
2

Court of Appeals for the Eleventh Circuit was entered on April 20, 2021. The petition is timely filed
pursuant to Rule 29,2, Supreme Court Rules as it is submitted by Petitioner, an inmate confined an
institution, filed on the | ^L>day of August 2021, by delivering it to prison authorities with a
declaration in compliance with 28 U.S.C. § 1746 setting out the date of deposit and by first-class U.S.
Mail, postage paid.

K

3

REASON FOR GRANTING THE PETITION
ISSUE
Whether a criminal judgment becomes final for purposes of the 1-year
Antiterrorism and Effective Death Penalty Act time limitation for filing a habeas
petition provided by 28 U.S.C. § 2244(d)(1)(A), upon compliance by the lower
tribunal with the mandate issued on direct review or upon the conclusion of direct
review?
Petitioner contends that the district erred in dismissing his 28 U.S.C. § 2254 as untimely. In
dismissing the petition, the district court held that the order striking the habitual felony offender
designation from Petitioner's sentence did not render a new judgment under the Antiterrorism and
Effective Death Penalty Act of 1996 (“ADEPA”).
In the case at bar, on Petitioner's direct appeal from his judgment and sentence, the Fourth
District Court of Appeals (“Fourth District”) “affirm[ed] his conviction and sentence, but reverse[d] his
designation as a habitual felony offender.” Jones v. State, 225 So.3d 290, 292 (Fla. 4th DCA 2017). On
September 18, 2018, the trial court, in compliance with the Fourth District's order, entered an order
striking the designation of habitual felony offender for Petitioner's first-degree murder counts.
In is order dismissing Petitioner's habeas petition, the district court held that for the purposes of
the 1-year ADEPA limitations period, Petitioner's sentence became final on August 18, 2017 - 30 days
after the Fourth District affirmed his conviction and sentences on July 19, 2017. However, the district
court is incorrect in this assessment.
The trial court sentenced Petitioner to life imprisonment as a habitual felony offender for two
counts of first-degree murder. First-degree murder is a capital felony, punishable by a term of life
imprisonment (or death), and the defendant “be ineligible for parole.” §775.082((l)(a), Fla. Stat. A
mandatory life sentence cannot be enhanced to some greater term based on a finding that the defendant
is a habitual felony offender. §775.084(4)(a)l., Fla. Stat., provides that the highest degree of felony
which may be enhanced for a habitual felony offender is “aTifeTelony or a felony ofThe first degree.”
4

This precluded a capital felony from being enhanced under the habitual felony offender statue.
Parrimon v. State, 644 So.2d 95 (Fla. 2d DCA 1994). Therefore, Petitioner could not be sentenced as a
habitual felony offender for his convictions for first-degree murder. To do so constitutes an illegal
sentence, An illegal sentence is defined as “[a] sentence that patently fails to comport with statutory or
constitutional limitations ...” Plott v. State, 148 So.3d 90, 94 (Fla. 2014). (alteration original) (quoting
State v. Macino, 714 So.2d 429, 433 (Fla. 1998)). The Fourth District recognized that Petitioner's
sentences for first-degree murder were illegal, and remanded back to the trial court with directions to
strike the habitual felony offender designation.
The subsequent striking of the the habitual felony offender designation corrected the
unlawfullv/illegally imposed sentence and in turn altered the substance of Petitioner's sentence. When
the order was entered striking the habitual felony offender designation, the sentence was effectively
corrected, resulting in a new judgment. Brown v. Inch, 2020 U.S. Dist. LEXIS 53897, *13 (S.D. Fla.
March 26, 2020).
Under ADEPA, the statue of limitations for filing a 2254 “does not begin until both the
conviction and sentence become final.” Burton v. Stewart, 549 U.S. 147, 156, 127 S.Ct. 793, 799
(2007). In Ferreira v. Sec'y, Dep't of Corr., 494 F.3d 1286, 1292 (11th Cir. 2007), this court explained
that there is one judgment, comprised of both the sentence and conviction. Accordingly, the AEDPA
“statue of limitations runs from the date the judgment pursuant to which the petitioner is in custody
becomes final.” Insignares v. Sec'y, Dep't of Corr., 755 F.3d 1273, 1281 (11th Cir. 2014) (quoting
Ferreira, 494 F.3d at 1288).
The September 18, 2018 order striking the habitual felony offender designation is the “judgment
that matters for purposes of section 2244, because it is the judgment authorizing Petitioner's
confinement.” See Patterson v. Sec'y, Dep't of Corr., 849 F.3d 1321, 1325 (11th Cir 2017) (quoting
'Magwood v. Patterson, 561 UiS-320,324, r30_SUCtU2788~(2’0TO))~ Under § 2244(3)’(1 )(A), the final'
5

judgment means both the judgment and the most current sentence. See Vaughn v. Sec'y, Dep't of Corn,
770 F. App'x, 554, 555 (11th Cir. 2019)(per curiam)(citing Burton v. Stewart, 549 U.S. 147, 156, 127 S.
Ct. 793 (2007).
The unlawful designation as a habitual felony offender for Petitioner's sentence was challenged
on direct appeal. Therefore, there was no intervening judgment(s) at issue. The only judgment at issue
is the original corrected judgment authorizing Petitioner's confinement. Because the correction of the
sentence came via reversal on direct appeal, there is no way that the judgment could have become final
prior to the trial court's compliance with the Fourth District directions to

strike the habitual

designation.
As a matter of law, Petitioner also contends that the district court erred in dismissing Petitioner's
§ 2254 habeas petition as untimely without reaching the claim of ineffective of assistance of counsel
raised by petitioner. “When the district court denies a habeas petition on procedural grounds without
reaching the prisoner's underlying constitutional claim, a COA should issue when the prisoner shows,
at least, that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595, 1604 (2000).
The issue presented in Petitioner's habeas petition was a claim alleging ineffective assistance of
trial counsel due to counsel's failure to object to, move to strike, and request a curative instructions
based on improper and prejudicial references to Petitioner's incarcerated status. During a brief recess
occurring during Petitioner's trial, Petitioner's trial counsel asked a State's witness to refrain from
mentioning any reference to Petitioner being in jail at the time of the witness' evaluation of Petitioner.
The witness agreed to counsel's request, but during cross examination the witness twice made
references to Petitioner's being in jail.
It is improper for a witness to present non-relevant evidence of a defendant's incarcerated status.
Williams v. State, 692 So.2d 1014 (Fla. 4m DCA 1997)(Evidence of a defendant's incarceration could"
6

reasonably sway jury to draw the most negative possible inferences.) Because such testimony was
improper and prejudicial, counsel should have objected to and moved to strike the witness' reference to
Petitioner's incarcerated status. Counsel also should have moved to strike that testimony. The failure
to do so caused trial counsel's representation to fall below an objective standard of reasonableness and
constitutes ineffective assistance of counsel. Strickland v. Washington, 466 U.S. 688, 104 S.Ct. 2025
(1984). Accordingly, jurists of reason would find it debatable whether Petitioner's petition stated a
valid claim of the denial of a constitutional right.
In dismissing Petitioner's petition, the district court erred in its determination that that for the
purposes of the 1-year ADEPA limitations period, Petitioner's sentence became final on August 18,
2017 - 30 days after the Fourth District affirmed his conviction and sentences on July 19, 2017.
Instead of relying on the date the Fourth District affirmed Petitioner's conviction and sentences, the
district court should have instead of relied on the date in which the trial court removed the habitual
felony offender designation on September 18, 2018, the date of compliance with the directions of the
Fourth District. Because the Petitioner's judgment on the date the trial court removed the habitual
felony offender designation in compliance with the direction of the Fourth District from Petitioner's
direct appeal of the judgment and sentence, reasonable jurists would find it debatable whether the
district was correct on its procedural ruling.
When the district denies relief on an procedural grounds, the petitioner seeking a COA must
show that “jurists of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right, and that jurist of reason would find it debatable whether the district
court was correct in its procedural ruling.” Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2021), (quoting
Slack v. McDaniel, 529 U.S. 473, 484,120 S.Ct. 1595, 1604 (2000)).
Petitioner made a adequate showing “that jurists of reason would find it debatable whether
Petitioner's habeas petition stated a valid""claim ofthe' denialof a constitutional nghf Slack, supra.
7

Specifically that trial counsel was ineffective for failing to object to, move to strike, and request a
curative instructions based on improper and prejudicial references to Petitioner's incarcerated status.
Petitioner also made an adequate showing that that jurists of reason would find it debatable whether the
district was correct in its procedural ruling. Specifically that the district court erred in dismissing
Petitioner's petition as untimely based on an incorrect calculation of the start date of Petitioner's 1-year
ADEPA limitations period. Therefore the United States Court of Appeals should have issued Petitioner
a certificate of appealability to take an appeal of the dismissal of his habeas petition without reaching
its underlying constitutional claim. 28 U.S.C. § 2253(c)(2).

CONCLUSION
Petitioner, Vincent Jones, respectfully moves this Honorable Court to grant review of the
Petition for Writ of Certiorari and to thereby appoint counsel to file a brief on the merits.

Respectfully submitted,

V.JAiSts/l*f

(L&h aA
Vincent Jones, DC# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
Crestview, FL 32539

8

